Case No. 19-1330

IN THE
SUPREME COURT OF THE UNITED STATES

PEOPLE OF MICHIGAN,
Petitioner,
v
JUAN WALKER,
Respondent.
______________________________________________________________________________

BRIEF IN OPPOSITION TO PETITION FOR CERTIORARI

Counsel of Record:
Mary A. Owens (P33896)
Attorney for Defendant
124 E. Fulton, Ste. 100
Grand Rapids, Michigan 49503
(616) 742-0431
maryowens515@gmail.com

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

COUNTER-STATEMENT OF QUESTIONS PRESENTED
In the trial-level proceedings, the Petitioner agreed that Lafler v
Cooper, 566 U.S. 156, 132 S. Ct. 1376, 182 L.Ed. 2d 398 (2012)
applied to Respondent Juan Walker and that there was no question of
“retroactivity” as applied to Walker. Once the trial court granted
relief to Walker, Petitioner appealed to the Michigan Court of
Appeals and to the Michigan Supreme Court. But, on appeal,
Petitioner took the exact opposite position it had previously conceded
in the trial court, i.e. Petitioner now claimed that Lafler did not apply
to Respondent and should not apply to his collateral proceedings.
Most significantly, however, Petitioner did not inform the Michigan
Supreme Court that it had diametrically changed its position, leading
Respondent to inform the Michigan Supreme Court that Petitioner
had “lacked candor” in its pleadings before that Court. Respondent
suggested that Petitioner should be judicially estopped from claiming
that Lafler did not apply to Juan Walker. In light of Petitioner’s
shifting positions, the questions presented should include:
1.

Has Petitioner waived its right to contest Lafler’s
applicability to Respondent’s case or is Petitioner
judicially estopped from changing its position from
what it argued at the trial level?

2.

Should Petitioner have informed this Court (as it
should have informed the Michigan Supreme Court)
that it had conceded at the trial level that Lafler
applied to Juan Walker?

4.

Because Lafler cases are highly fact-specific and
dependent on the trial court’s discretion as to remedy,
should this Court review this particular iteration of a
Lafler remedy?

5.

Is Michigan free to adopt a rule of retroactivity when
reviewing its own convictions that might be broader
than allowable for federal courts under Teague v.
Lane, 489 U.S. 288, 109 S.Ct., 103 L.Ed. 2d 334
(1989)?

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

ii

TABLE OF CONTENTS
Counter Statement of Questions Presented

ii

Table of Contents

iii

Index of Authorities

v

Counter Statement of Facts and Proceedings

1

Reasons why the Writ Should Not be Granted - Argument

8

I.

II.

III.

PETITIONER HAS WAIVED ITS RIGHT TO CONTEST LAFLER’S
APPLICABILITY TO RESPONDENT’S CASE. FURTHER PETITIONER IS
JUDICIALLY ESTOPEED FROM CHANGING ITS POSITION FROM WHAT IT
ARGUED AT THE TRIAL LEVEL. FINALLY, PETITIONER SHOULD HAVE
BEEN CANDID WITH THIS COURT ABOUT WHAT IT ARGUED BELOW
AND THAT IT HAD CONCEDED AT THE TRIAL LEVEL THAT LAFLER V.
COOPER APPLIED TO RESPONDENT JUAN WALKER.

8

BECAUSE LAFLER CASES ARE HIGHLY FACT-SPECIFIC AND DEPENDENT
ON THE TRIAL COURT’S DISCRETION AS TO REMEDY, IT WOULD NOT BE
APPROPRIATE FOR THIS COURT TO REVIEW THIS PARTICULAR
ITERATION OF A LAFLER REMEDY. MOREOVER, MICHIGAN IS FREE TO
ADOPT A RULE OF RETROACTIVITY THAT MAY BE BROADER WHEN
REVIEWING ITS OWN STATE CONVICTIONS THAN WOULD BE
ALLOWABLE FOR FEDERAL COURTS.

12

LAFLER v COOPER APPLIES TO RESPONDENT’S CASE, WHICH BECAME
FINAL IN 2005, BECAUSE IT DID NOT ANNOUNCE A NEW RULE.

16

Conclusion

19

Certificate of Word Count

19

Appendix of Exhibits

20

Appendix 1:

Appendix 2:

Appellant Juan Walker’s Answer (corrected) to Application for Leave
to Appeal

1B-25B

The People’s Response to Defendant’s Motion for Relief from
Judgment

26B-35B

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

iii

Appendix 3:

Appendix 4:

September 8, 2015 Opinion of the Circuit Court Finding Trial
Counsel Ineffective

36B-41B

December 17, 2015 Post Conviction Hearing

42B-80B

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

iv

INDEX OF AUTHORITIES
Federal Cases
Browning v. Levy, 283 F.3d 761 (C.A. 6 2002)

11

Buenrostro v. United States, 697 F.3d 1137 (9th Cir. 2012)

18

City of Canton, Ohio v. Harris, 489 U.S. 378,
109 S. Ct. 1197, 103 L. Ed. 2d 412 (1989)
Cutter v. Wilkinson, 544 U.S. 709, 125 S.Ct. 2113, 161 L.Ed.2d 1020 (2005)

8
8

Danforth v. Minnesota, 552 U.S. 264, 128 S. Ct. 1029, 169 L. Ed. 2d 859 (2008)

16

Edwards v. Aetna Life Ins. Co., 690 F.2d 595 (C.A.6 1982)

11

Gallagher v. United States, 711 F. 3d 315 (2d Cir. 2013)

18

Hare v. United States, 688 F. 3d 878 (7th Cir. 2012)

10, 18

In re King, 697 F. 3d 1189 (5th Cir. 2012)

18

In re Liddell, 722 F. 3d 737 (6th Cir. 2013)

18

In re Perez, 682 F.3d 930 (11th Cir. 2012)

9, 18

Lafler v. Cooper, 566 U.S. 156, 132 S. Ct. 1376, 182 L.Ed. 2d 398 (2012)
McLane Co. v. E.E.O.C., 137 S. Ct. 1159, 197 L. Ed. 2d 500 (2017)
Miller v. Thaler, 714 F. 3d 897 (5th Cir. 2013)

throughout
8
18

New Hampshire v. Maine, 532 U.S. 742, 121 S. Ct. 1808, 149 L. Ed. 2d 968 (2001)

10, 11

Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 (1984)

throughout

Teague v. Lane., 489 U.S. 288, 109 S.Ct., 103 L.Ed. 2d 334 (1989)

16, 17, 18

United States v. Oakland Cannabis Buyers' Co-op., 532 U.S. 483,
121 S. Ct. 1711, 149 L. Ed. 2d 722 (2001)

8

Williams v. United States, 705 F.3d 293 (8th Cir. 2013)

18

Williams v. Taylor, 529 U.S. 362, 120 S. Ct. 1495, 146 L. Ed. 2d 389 (2000)

17

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

v

State Cases
Duncan v. Michigan, 300 Mich. App. 176, 832 N.W.2d 761 (2013)

12

Lichon v. Am Universal Ins Co, 435 Mich. 408, 459 N.W.2d 288 (1990)

11

Paschke v. Retool Indus., 445 Mich. 502, 519 N.W.2d 441 (1994)

11

People v. Jones, 52 Mich. App. 522, 217 N.W.2d 884 (1974)

12

People v. Walker, 497 Mich. 894 (2014)

1

Szyszlo v. Akowitz, 296 Mich. App. 40, 818 N.W.2d 424 (2012)

11

Treatises
18 Moore's Federal Practice § 134.30 (3d ed. 2000)
18 C. Wright, A. Miller, & E. Cooper, Federal Practice and Procedure § 4477 (1981)

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

vi

10
10-11

COUNTER-STATEMENT OF FACTS AND PROCEEDINGS
Introduction
Petitioner has not told this Court a very important fact – that it now takes a
diametrically opposite position from that taken before the trial court. In the Wayne County Circuit
Court proceedings before the trial judge, Petitioner agreed that Lafler v. Cooper, 566 U.S. 156, 132
S. Ct. 1376, 182 L.Ed. 2d 398 (2012) applied to Respondent Juan Walker, and that there was no
issue of retroactivity involved in his case. Nor did Petitioner reveal to the Michigan Supreme Court
that it had agreed to the applicability of Lafler to Juan Walker. Before the Michigan Supreme Court,
Respondent contended that Petitioner’s failure to reveal its “volte face” as to the applicability of
Lafler amounted to “lack of candor” to the Court, and we reiterate that claim now. We called out
Petitioner’s actions as “cynical” and actually suggested that the Michigan Supreme Court admonish
Petitioner for not revealing this highly salient fact. See, Respondent’s Appendix 1, Page 14B.
1.

Factual Background
Respondent accepts as accurate the proceedings as recited by the Michigan Court of

Appeals in Petitioner’s Appendix 25A-31A. However, as it did before the Michigan Supreme Court,
Petitioner is omitting to state some of the most salient legal aspects of the case in its petition to this
Court. These omissions are highly significant and should disqualify Petitioner from now being heard
before this Court.
After Respondent’s convictions became final after direct review, Respondent filed
a motion for relief from judgment pursuant to the Michigan Court Rules governing collateral attacks
on criminal convictions. Respondent claimed that his trial attorney had not conveyed a plea offer
to him shortly before trial. The Michigan Supreme Court remanded the case for an evidentiary
hearing on Respondent’s claim that his trial counsel was constitutionally ineffective for failing to
convey a 25-year minimum plea offer. People v. Walker, 497 Mich. 894 (2014). On remand, the

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

1

circuit court found counsel constitutionally ineffective, granted relief from judgment, allowed
Defendant to enter the plea, and sentenced him, pursuant to the plea offer, to 25-50 years in prison.
The prosecution appealed, and the Court of Appeals reversed finding that Lafler v. Cooper, supra,
did not apply to Respondent Juan Walker on collateral review, because he could not show
“prejudice” under Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 (1984).
Significantly, in its appeal to the Michigan Court of Appeals the prosecution argued only
that the trial court erred in finding prejudice under Strickland, supra, i.e., a reasonable probability that
Respondent would have accepted the plea offer. The Court of Appeals agreed. Instead of deferring to the
trial court's judgment, the Court of Appeals reversed because, although it acknowledged there was
sufficient evidence to find prejudice (Petitioner’s testimony that he would have accepted the offer and the
disparity between the sentences threatened and offered), it believed "the trial court did not base its decision
on any of the testimony at the Ginther hearing or on any evidence of the actual circumstances before trial."
Petitioner’s Appendix 20A.

Respondent appealed this decision and the Michigan Supreme Court reversed the
Court of Appeals and remanded to the trial court. See Petitioner’s Appendix 23A. In its Order, the
Michigan Supreme Court specifically directed the trial court to consider whether Lafler should apply
retroactively to Respondent Juan Walker.
Then, on remand to the trial court, hearings were held over four days, including two
days of evidentiary hearings. Five witnesses testified, Respondent, his trial attorney, James Feinberg,
his

appellate atto rney,

Suzanna Kostovski,

polygraph examiner Christopher Lanfear,

and

Respondent’s brother, Omar Walker.
Respondent testified that he was innocent and wo uld not have pleaded guilty as
charged, to first-degree murder. However, he testified that his trial counsel never told him about the
plea offer to second-degree murder with a 25-50 year sentence agreement and that, if he had, he
would have accepted it, pleaded guilty, and admitted guilt, despite his innocence, "[bec]ause it wasn't
V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

2

worth gambling" and "[b]ecause I wouldn't [have] gamble[d] with my life like that."
Trial counsel Feinberg testified that he remembered the o ffer but did not remember
conveying it to Respondent. Appellate counsel Kostovski testified that, when she spoke to
Respondent in preparation for his appeal, he told her there had been no plea offer.
Polygraph examiner Lanfear testified that he conducted a polygraph examination of
Res p o ndent and that he believed Respondent was being truthful in saying he had been unaware o f
the plea offer until the conclusion of his direct appeal and that his trial counsel never presented the
offer to him, the only two questions Lanfear asked.
Respondent’s brother Omar Walker testified that he hired Feinberg to represent
Respondent in this case, that he was continually trying to chase Feinberg down to ask him about the case,
and that, whenever he caught him, Feinberg would only say he'd get back to him. Feinberg never told
Omar that the prosecution made a plea offer. Had he done so, Omar would have told Respondent that, if
it were him, he would take the offer.

After the evidentiary hearings, the trial court issued the opinion attached as
Respondent’s Appendix 3, Pages 36B-41B. The trial court found that trial counsel had not conveyed
the plea offer to Respondent, and held that he had performed deficiently. The trial court then
reserved the question of the “remedy” it should fashion in its “discretion” (Lafler, supra at 163-164).
The trial court specifically directed the parties to address the question whether Lafler should be
applied retroactivity to Juan Walker. See Appendix 3, at page 40B-41B.
In response to the trial court’s directive, Petitioner filed the document attached as
Respondent’s Appendix 2, Pages 26B-35B. In that document, Petitioner specifically conceded that
there was no question of retroactivity, and that Lafler applied to Respondent’s case. As Petitioner
framed the issue, the only question before the trial court was whether Respondent could show
“prejudice” under Strickland v. Washington, supra.

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

3

A further hearing was held on December 17, 2015. Appendix 4, Pages 42B-80B.

After

further briefing and argument, the trial court granted relief from judgment, ordering the prosecution to
re-extend the offer. The prosecution complied.

On January 15, 2016, Defendant pleaded guilty pursuant

to the offer and admitted shooting and killing the victim. He was later sentenced to 25-50 years for
second-degree murder plus two years for felony firearm.

Then, Respondent, having lost before the trial court, appealed again, but this time –
for the first time – claimed that Lafler should not be applied retroactively to Respondent. The
Michigan Court of Appeals held that Lafler did apply to Respondent’s case on collateral review, and
the Michigan Supreme Court denied leave to appeal.

Respondent’s Answer to Petitioner’s

Application for Leave to Appeal is attached as Respondent’s Appendix 1, Pages 1B-25B.

2.

The relevant chronology of the “retroactivity” issue as discussed by the
parties and the court below.
We contended below that there was no issue of “retroactivity” involved in this case

at all. And, at least at the trial court level, Petitioner agreed with us! We also argued that it involved
lack of candor to the Michigan courts for Petitioner not to have acknowledged that it had conceded
to Judge Jackson that Lafler applied to Respondent Juan Walker.

Here is the relevant chronology of the discussion of “retroactivity” in this case:
The Michigan Supreme Court in its November 19, 2014 Order (Petitioner’s Appendix
1A-3A) remanding the case to the circuit court, had specifically directed that the issue of retroactivity
should be addressed on remand:
If the defendant establishes that his trial counsel was ineffective in
failing to convey the plea bargain as outlined above, the defendant
shall be given the opportunity to establish his entitlement to relief
pursuant to MCR 6.508(D). If the defendant successfully establishes
his entitlement to relief pursuant to MCR 6.508(D), the trial court
V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

4

must determine whether the remedy articulated in Lafler v Cooper
should be applied retroactively to this case, in which the defendant’s
conviction became final in October 2005.
As noted, post conviction evidentiary hearings were held. Petitioner’s trial counsel
and Petitioner himself testified. On September 8, 2015 the trial court issued a written Opinion.
(Respondent’s Appendix 3, 36B-41B). In that Opinion, the trial court ordered another hearing to be
held and specifically directed the parties to address the retroactivity question ordered by the
Michigan Supreme Court:
Further, be prepared to present argument the final directive of the
Michigan Supreme Court Remand Order: “***whether the remedy
articulated in Lafler v Cooper should be applied retroactively to this
case***”.
(Appendix 3, Pages 40B-41B).
A hearing was held on December 17, 2015 (See Appendix 4, Pages 42B-80B). At
that hearing, the issue of retroactivity was never addressed by either the parties or by the court, even
though the circuit court had specifically ordered the parties to be prepared to address it. At that
hearing all parties assumed that Lafler applied to Defendant’s case:
THE COURT: Noting that Mr. Walker is also present in court also. Initially I thought that
this would be a argument without the need or the presence of Mr. Walker. But there was a request
made by defense to have him present.
And I agreed with that. Just for no other reason then just to make sure that we get
everything hopefully, resolved or close to resolution here. We’ve been going back and forth with
this.
My understanding right now, I’m gonna give you both a chance to respond. That after
I wrote my opinion back in September or so, I scheduled this for some further hearing. Giving both
sides a chance to – well, actually it came down to the defense following the procedure of Lafler v
Cooper, or whatever the case is.

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

5

Lafler, L-A-F-L-E-R. And what the Michigan Supreme Court said as to what the
process, you know, should be. And part of that was to allow the defense to file a motion for relief
from judgment.
And the prosecution to respond, you know, to that. So that’s kind of like where we
are. Am I right with that?
MR. SCHARG: Yes, your Honor.
THE COURT: Okay. Now –
MR. CHAMBERS: Yes, your Honor.
THE COURT: As I still understand basically what the issue or maybe issue or issues is or
are. Is after I made the decision here that counsel was in fact deficient, the Prosecution essentially
disagreed with that because of the fact that it wasn’t clear in making that decision. That the
defendant would have accepted the plea.
And because of that and what is set forth by the Supreme Court, of the procedure to be
followed in Lafler. That means that counsel was not deficient essentially. That kind of sums it up
Mr. Chambers. (Tr 3-4).
At the conclusion of the hearing the circuit court ordered that the prosecution re-offer
the 25-50 plea offer that had initially been tendered to defense counsel.
Then, Petitioner appealed to the Court of Appeals, contending that Judge Jackson had
abused his discretion in finding Strickland “prejudice” that there was a reasonable probability that
Respondent would have accepted the original plea offer, had he known about it. The Court of
Appeals agreed with the prosecution and on October 12, 2017 reinstated Defendant’s conviction of
first degree murder. The Court of Appeals did not discuss the issue of retroactivity, either. Rather,
the Court simply reversed the trial court’s findings that Defendant had been prejudiced when trial
counsel did not convey the plea offer to him.
Respondent appealed to the Michigan Supreme Court, which, as noted above,
reversed the Court of Appeals’ finding of “no prejudice” and affirmed Judge Jackson’s application

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

6

of Lafler. But the Michigan Supreme Court then remanded the case to the trial for a discussion of
whether Lafler is “retroactive” to Respondent’s case. And, as noted, Petitioner agreed that Lafler
applied retroactively to Juan Walker.

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

7

REASONS WHY THE WRIT SHOULD NOT BE GRANTED - ARGUMENT

I.
PETITIONER HAS WAIVED ITS RIGHT TO CONTEST LAFLER’S
APPLICABILITY TO RESPONDENT’S CASE. FURTHER PETITIONER IS
JUDICIALLY ESTOPEED FROM CHANGING ITS POSITION FROM
WHAT IT ARGUED AT THE TRIAL LEVEL. FINALLY, PETITIONER
SHOULD HAVE BEEN CANDID WITH THIS COURT ABOUT WHAT IT
ARGUED BELOW AND THAT IT HAD CONCEDED AT THE TRIAL
LEVEL THAT LAFLER V. COOPER APPLIED TO RESPONDENT JUAN
WALKER.
This Court has frequently said that it is a “court of review” not a “court of first view”.
Cutter v. Wilkinson, 544 U.S. 709, 718, n. 7, 125 S.Ct. 2113, 161 L.Ed.2d 1020 (2005); McLane Co.
v. E.E.O.C., 137 S. Ct. 1159, 1170, 197 L. Ed. 2d 500 (2017), as revised (Apr. 3, 2017); United
States v. Oakland Cannabis Buyers' Co-op., 532 U.S. 483, 494, 121 S. Ct. 1711, 1719, 149 L. Ed.
2d 722 (2001). In this case, Petitioner conceded to the Michigan trial court that Lafler applied to
Juan Walker, even though the Michigan courts had directed the parties specifically to address the
question of retroactivity. See Petitioner’s Appendix 23A-24A. Thus, when Petitioner conceded
there was no retroactivity issue involved, Judge Jackson never considered it. This Court, being a
“court of review”, should not grant certiorari when the court of first instance – the Wayne County
Circuit Court Criminal Division – did not. We submit that Petitioner’s actions should constitute a
waiver of any claim in this case that Lafler does not apply to Respondent Juan Walker.
Further, this Court has also said that had it known that a party has taken an
inconsistent position below from that taken after certiorari was granted, it would not have granted
the writ. City of Canton, Ohio v. Harris, 489 U.S. 378, 385, 109 S. Ct. 1197, 1202, 103 L. Ed. 2d
412 (1989).

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

8

How do these points of law apply here? Consider first what Petitioner has claimed
in its “Reasons for Granting the Writ”:
“Lafler announced a new rule, one not dictated by prior
precedent, so as not to be applicable retroactively on collateral
attack.”
Then, also consider Petitioner’ assertion at page 23 of its Petition:
“Lafler, then, should not be applicable in this case.”
(Petition, page 23).
But what did Petitioner say in the trial court proceedings before the state court?
In its October 28, 2015 Response to Defendant’s Motion for Relief from Judgment,
Petitioner stated, at page 8 of the Response:
As far as the retroactivity of Lafler v Cooper to this case, retroactivity
would only be an issue if this Court had found that Defendant knew
of the plea offer at the time that he filed his appeal of right with the
Court of Appeals, but did not raise an issue as to it in his appeal of
right because he did not think that the claim was a cognizable one.
If that were the case, he would be precluded from doing so now
because Lafler v Cooper, according to a number of federal court
cases, is not retroactive on collateral review. FN5 But this Court found
that that is not the case, that is, that Defendant did not know of the
plea offer at the time of his appeal of right to the Court of Appeals.
Thus the retroactivity of Lafler v Cooper to this case is not an issue.
(Appendix 2, Page 33B, Emphasis supplied).

And, in its Footnote 5 (referenced in the paragraph above) to its Response the
prosecution said the following:
5. For example, in In re Perez, 682 F3d 930, 932 (CA 11, 2012) the
Court considered whether Lafler announced a new rule of
constitutional law, made retroactive to cases on collateral review by
V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

9

the Supreme Court. The Court held that Lafler did not announce a
new rule of constitutional law because it merely was an application
of the Sixth Amendment right to counsel, as defined in Strickland v
Washington, 466 US 668; 104 S Ct 2052, 80 Led 2d 674 (1984) to a
specific factual context. The Court further reasoned that the Supreme
court had long recognized that Strickland’s two part standard applied
to ineffective assistance claims arising out of the plea process. See
also, Hare v United States, 688 F3d 878, 879 (CA 7, 2012), and In re
Graham, 714 F3d 1181 (CA 10, 2013).
We argued below that the inconsistent positions taken by Petitioner were grounds for
admonishment by the Michigan Supreme Court (Respondent’s Appendix 14B), were “cynical” if not
duplicitous (Appendix 7B), that the position taken by Petitioner in the Michigan appellate courts
was “wholly inconsistent” with the position it took at the trial level (Appendix 23B), and that the
doctrine of judicial estoppel barred Petitioner from taking diametrically opposite positions as to the
applicability of Lafler.

The doctrine of judicial estoppel applies where a party has unequivocally asserted
a position in a prior proceeding that is wholly inconsistent with the position now taken. This Court
has discussed it in New Hampshire v. Maine, 532 U.S. 742, 749, 121 S. Ct. 1808, 1814, 149 L. Ed.
2d 968 (2001):
“[W]here a party assumes a certain position in a legal proceeding, and
succeeds in maintaining that position, he may not thereafter, simply
because his interests have changed, assume a contrary position,
especially if it be to the prejudice of the party who has acquiesced in
the position formerly taken by him.” ... This rule, known as judicial
estoppel, “generally prevents a party from prevailing in one phase of
a case on an argument and then relying on a contradictory argument
to prevail in another phase.”... see 18 Moore's Federal Practice §
134.30, p. 134–62 (3d ed. 2000) (“The doctrine of judicial estoppel
prevents a party from asserting a claim in a legal proceeding that is
inconsistent with a claim taken by that party in a previous
proceeding”); 18 C. Wright, A. Miller, & E. Cooper, Federal Practice
V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

10

and Procedure § 4477, p. 782 (1981) (hereinafter Wright) (“absent
any good explanation, a party should not be allowed to gain an
advantage by litigation on one theory, and then seek an inconsistent
advantage by pursuing an incompatible theory”).” (Internal citations
omitted).
The purpose of this doctrine is “to protect the integrity of the judicial process,”
Edwards v. Aetna Life Ins. Co., 690 F.2d 595, 598 (C.A.6 1982), and to prevent parties from
“playing ‘fast and loose with the courts.” New Hampshire v. Maine, supra at 749–50.

We argued the applicability of this doctrine in our Response to Petitioner’s
Application for Leave to Appeal in the Michigan Supreme Court. Judicial estoppel “generally
prevents a party from prevailing in one phase of a case on an argument and then relying on a
contradictory argument to prevail in another phase.” Paschke v. Retool Indus., 445 Mich. 502,
509–510, 519 N.W.2d 441 (1994); Lichon v. Am. Universal Ins. Co., 435 Mich. 408, 416–17, 459
N.W.2d 288, 293 (1990). This doctrine is “utilized in order to preserve ‘the integrity of the courts
by preventing a party from abusing the judicial process through cynical gamesmanship.’ ” Browning
v. Levy, 283 F.3d 761, 775 (C.A. 6 2002); This doctrine prevents a party from asserting one position
when that party “successfully and ‘unequivocally’ asserted a position in a prior proceeding that is
‘ wholly inconsistent’ with the position now taken.” Szyszlo v. Akowitz, 296 Mich. App. 40, 51, 818
N.W.2d 424 (2012) (citation omitted).
The criteria for the application of judicial estoppel are present in this case. First, the
prosecution was “successful” below – it persuaded the trial court to accept its argument that Lafler
applied to Respondent and that there was no issue of “retroactivity.” Second, the position it has
taken in its Petition for Certiorari is wholly inconsistent with the position it took below in the
Michigan trial court.

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

11

Of course, this Court need not take notice of the decisions of the Michigan Court of
Appeals. But, in at least one Michigan Court of Appeals case, the doctrine of judicial estoppel has
been applied to preclude the prosecution from taking two diametrically opposing positions. People
v. Jones, 52 Mich. App. 522, 217 N.W.2d 884 (1974)(Prosecutor would not be heard to argue both
that certain persons were not res gestae witnesses to crime of sale of heroin and that they were
accomplices. M.C.L.A. § 335.152.); Duncan v. Michigan, 300 Mich. App. 176, 190, 832 N.W.2d
761, 768–69 (2013).
In conclusion, this Court should deny the Petition for Certiorari due to Petitioner’s
waiver of the issue and due to the doctrine of judicial estoppel.

II.
BECAUSE LAFLER CASES ARE HIGHLY FACT-SPECIFIC AND
DEPENDENT ON THE TRIAL COURT’S DISCRETION AS TO REMEDY,
IT WOULD NOT BE APPROPRIATE FOR THIS COURT TO REVIEW THIS
PARTICULAR ITERATION OF A LAFLER REMEDY. MOREOVER,
MICHIGAN IS FREE TO ADOPT A RULE OF RETROACTIVITY THAT
MAY BE BROADER THAN WOULD BE ALLOWABLE FOR FEDERAL
COURTS WHEN REVIEWING ITS OWN STATE CONVICTIONS.

1.

The relevant holdings of Lafler v Cooper and the trial court’s application of these

holdings.
Lafler held that the Sixth Amendment requires trial counsel to provide effective
advice during pretrial proceedings, and that if he fails to do so, he acts deficiently, under the wellknown test set forth in Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674
(1984). The Court held that when a defendant can show that he is prejudiced by counsel’s
ineffectiveness in the plea context (for example by rejecting a favorable plea offer) a trial court must

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

12

“remedy” the taint of ineffectiveness in the plea context by exercising discretion as to what remedy
should be applied.
In contrast to Hill, here the ineffective advice led not to an offer's
acceptance but to its rejection. Having to stand trial, not choosing to
waive it, is the prejudice alleged. In these circumstances a defendant
must show that but for the ineffective advice of counsel there is a
reasonable probability that the plea offer would have been presented
to the court (i.e., that the defendant would have accepted the plea and
the prosecution would not have withdrawn it in light of intervening
circumstances), that the court would have accepted its terms, and that
the conviction or sentence, or both, under the offer's terms would
have been less severe than under the judgment and sentence that in
fact were imposed.
Lafler v. Cooper, 566 U.S. 156, 163–64, 132 S. Ct. 1376, 1385, 182 L. Ed. 2d 398 (2012).
Here, Juan Walker established that his trial counsel failed to convey a favorable plea
offer to him (plead to second degree murder, with a sentence of 25-50 years) and he therefore went
to trial and was convicted of a more serious offense (first degree murder). The trial court found that
there was a reasonable probability that Defendant would have accepted the offer had he known about
it. Thus, the trial court found Defendant had been “prejudiced” under this standard. And, the
Michigan Supreme Court in its November 21, 2018 Order upheld the finding of “prejudice.”
Petitioner’s Appendix 23A-24A.
[I]n its review of the record, the Court of Appeals failed to
recognize that, at the end of that hearing, the trial court quoted
the applicable standard from Lafler and unequivocally found that
there was a reasonable probability that the defendant would have
accepted the plea offer. This finding – made by the trial judge
who presided over the trial and the evidentiary hearing – is
supported by the record, and we are not “left with a definite and firm
conviction that the trial court made a mistake.”

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

13

Lafler held that the question of “remedy” must be tailored to the particular case in
front of the court, but that even if a subsequent trial is free from constitutional error, a defendant may
still have been “prejudiced.”
Even if the trial itself is free from constitutional flaw, the defendant
who goes to trial instead of taking a more favorable plea may be
prejudiced from either a conviction on more serious counts or the
imposition of a more severe sentence.
This Court outlined a variety of remedies for one who has suffered ineffective
assistance of trial counsel in the plea-bargaining context, including a new trial, resentencing, or reoffering the plea offer, and this Court made clear that the question of remedies is referred to the trial
court’s “discretion.”
In some situations it may be that resentencing alone will not be full
redress for the constitutional injury. If, for example, an offer was for
a guilty plea to a count or counts less serious than the ones for which
a defendant was convicted after trial, or if a mandatory sentence
confines a judge's sentencing discretion after trial, a resentencing
based on the conviction at trial may not suffice.... In these
circumstances, the proper exercise of discretion to remedy the
constitutional injury may be to require the prosecution to reoffer the
plea proposal. Once this has occurred, the judge can then exercise
discretion in deciding whether to vacate the conviction from trial and
accept the plea or leave the conviction undisturbed.
In implementing a remedy in both of these situations, the trial court
must weigh various factors; and the boundaries of proper discretion
need not be defined here. Principles elaborated over time in decisions
of state and federal courts, and in statutes and rules, will serve to give
more complete guidance as to the factors that should bear upon the
exercise of the judge's discretion. (Internal citations omitted).

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

14

Lafler v. Cooper, supra at 171, 132 S. Ct. at 1389. And, this Court approved of the specific remedy
ordered by the Michigan trial court in this case – ordering the prosecution to reoffer the original plea
agreement:
As a remedy, the District Court ordered specific performance of the
original plea agreement. The correct remedy in these circumstances,
however, is to order the State to reoffer the plea agreement.
Lafler, supra at 174, 132 S. Ct. at 1391(Emphasis supplied).

2.

Proceedings in the Michigan courts.
In this case, on remand, the trial court presided over four days of post-conviction

hearings, including two days of evidentiary hearings, a special pretrial, and a plea and sentence. It
was after these hearings that Judge Jackson in his “discretion” -- Lafler, supra at 171, 174 – ordered
that the prosecution should re-offer the plea agreement to Defendant. This was an entirely proper
exercise of Judge Jackson’s discretion to craft a remedy, and one that has already been approved by
the Michigan Supreme Court in its November 21, 2018 Order. Appendix 23A-24A.
Keep in mind, also that during the four days of trial level proceedings. Judge Jackson
took testimony from multiple witnesses, who were both examined and cross-examined. The trial
judge bifurcated the proceedings – the first portion of the proceedings were dedicated to the issue
whether trial counsel had performed deficiently, the first Strickland factor. He authored a fairly
lengthy opinion. Respondent’s Appendix 3, Pages 36B-41B. Then, Judge Jackson had to decide
what specific remedy to craft, and he decided that the remedy would require the prosecution to reoffer its original plea.
This case has been up and down the Michigan trial and appellate ladder for many
years. Many judges have had the opportunity to examine the specific facts of the case in light of the

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

15

guiding principles of Strickland and Lafler. It would be decidedly imprudent for this Court to weigh
in at this very late stage.
Moreover, one additional factor that Petitioner has failed to bring to this Court’s
attention: this Court has already ruled that the state courts are free to adopt their own rules of
retroactivity when reviewing their own state convictions! Danforth v. Minnesota, 552 U.S. 264, 282,
128 S. Ct. 1029, 1042, 169 L. Ed. 2d 859 (2008)(“In sum, the Teague decision limits the kinds of
constitutional violations that will entitle an individual to relief on federal habeas, but does not in any
way limit the authority of a state court, when reviewing its own state criminal convictions, to provide
a remedy for a violation that is deemed “nonretroactive” under Teague.”).

III.
LAFLER v COOPER APPLIES TO RESPONDENT’S CASE, WHICH
BECAME FINAL IN 2005, BECAUSE IT DID NOT ANNOUNCE A NEW
RULE.

Even assuming that this Court wishes to examine the question presented by Petitioner,
this case does not involve a question of “retroactivity” at all. The question of “retroactivity” of a
legal rule or holding is only at issue when a court’s holding involves a “new” rule. If there is a
“new” rule of criminal law, the question arises whether the new rule applies only to cases then
pending on direct review, or also to long-final cases and to cases on collateral review. This is the
correct framing of an issue of “retroactivity.” But, if court’s holding merely applies an “old” rule,
there is no question of “new legal jurisprudence” having been created. By definition, an old rule has
been around for a while and there is no need to ask whether it is “retroactive.” Now, a defendant may
or may not benefit from application of an old rule for a variety of reasons -- either on direct review
or on collateral review – but it is not a question of whether the old rule is “retroactive” or not.

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

16

The rule at issue in Defendant’s case was a straightforward application of Strickland
v. Washington and Hill v. Lockhart, 474 U.S. 52, 106 S.Ct. 366, 88 L.Ed.2d 203 (1985). Did trial
counsel perform deficiently in failing to convey a plea offer? And, was Juan Walker prejudiced?
There is nothing new or novel about these principles. There was no “new rule” involved in
Respondent’s case. Both cases had been decided many years before Respondent’s offense, trial and
conviction. Both Strickland and Hill established the right to effective assistance of counsel in both
trial and plea contexts. There is nothing at all unusual about the holdings of either case as applied
here. Lafler v. Cooper merely applied Strickland to a fact-specific plea bargaining context and holds
that a defendant who can show prejudice in the context of a plea may be entitled to some sort of
remedy that will excise the taint of his counsel’s ineffectiveness.
This conclusion is surely self-evident, and it is notable that the prosecution can find
only one case (from the Supreme Court of Utah) to support its current claim that Lafler does not
apply to Respondent on collateral review. Every other court which has considered the issue has held
that Lafler was simply a clarification of existing law as explained in Strickland and Hill.
The procedural context of Lafler establishes that this Court was not recognizing a new
right. The case was decided in the state courts, and a federal court may only grant relief on collateral
review of a state decision if that decision violated “clearly established federal law.” 28 U .S.C. §
2254(d)(1). Lafler himself was proceeding on collateral review, and he would not have been able
to obtain any relief whatever if the Court’s holding had not been mandated by “clearly established
Federal law.” New and retroactively applicable rules do not satisfy the “clearly established federal
law” requirement. See Williams v. Taylor, 529 U.S. 362, 380, 120 S. Ct. 1495, 146 L. Ed. 2d 389
(2000)(“In Teague v. Lane, 489 U.S. 288, 109 S. Ct. 1060, 103 L. Ed. 2d 334 (1989), we held that
the petitioner was not entitled to federal habeas relief because he was relying on a rule of federal law
that had not been announced until after his state conviction became final.”)

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

17

Since Lafler was decided, virtually every court, including every federal circuit court
of appeals, to have addressed the question has held that Lafler did not create a new constitutional
right to be applied retroactively to cases on collateral review. Buenrostro v. United States, 697 F.3d
1137, 1140 (9th Cir. 2012)(“The Supreme Court in both cases merely applied the Sixth Amendment
right to effective assistance of counsel according to the test articulated in Strickland... and
established in the plea-bargaining context in Hill v. Lockhart...”); In re Perez, 682 F.3d 930, 933–34
(11th Cir. 2012); Miller v. Thaler, 714 F. 3d 897, 902 (5th Cir. 2013)(“We have previously held, and
now reiterate, that Frye did not announce a new rule of constitutional law because it ‘merely applied
the Sixth Amendment right to counsel to a specific factual context.”); In re King, 697 F.3d 1189,
1189 (5th Cir. 2012)(“we agree with the Eleventh Circuit's determination in In re Perez ... that
Cooper and Frye did not announce new rules of constitutional law because they merely applied the
Sixth Amendment right to counsel to a specific factual context.”); In re Liddell, 722 F. 3d 737, 738
(6th Cir. 2013) (per curiam) (citing cases); Hare v. United States, 688 F. 3d 878, 879 (7th Cir. 2012);
Gallagher v. United States, 711 F. 3d 315, 315–16 (2d Cir. 2013)(“Neither Lafler nor Frye
announced “a new rule of constitutional law”: Both are applications of Strickland...”); Williams v.
United States, 705 F.3d 293, 294 (8th Cir. 2013)(“We agree with every other circuit to have
considered the issue that neither Frye nor Cooper established a “new rule of constitutional law.”).
In Wert v. United States, 596 F. App'x 914, 917 (11th Cir. 2015) the Eleventh Circuit
said: “Lafler did not announce a new rule of constitutional law because it merely was an application
of the Sixth Amendment right to counsel, as defined in Strickland, to a specific factual context...
This Court further reasoned that the Supreme Court had long recognized that Strickland's two-part
standard applied to ineffective assistance claims arising out of the plea process. Id. Applying Teague,
this Court concluded that Lafler did not break new ground or impose new obligations on either the

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

18

State or federal government, and its holding was dictated by Strickland. Id. at 933.” (Internal
citations omitted).
CONCLUSION
As we said below to the Michigan Supreme Court, “There may be a future case in
which the “retroactivity” of Lafler v Cooper may properly be raised, but this case is not it.”
(Respondent’s Appendix 1, Page 24B).
The Petition should be DENIED.

Date: June 23, 2020

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

/s/ Mary A. Owens
Mary A. Owens P-33896
124 E. Fulton, Ste. 100
Grand Rapids, Michigan 49503

19

Case No. 19-1330
IN THE
SUPREME COURT OF THE UNITED STATES

PEOPLE OF MICHIGAN,
Petitioner,
v
JUAN WALKER,
Respondent.
______________________________________________________________________________

APPENDIX OF EXHIBITS
Appendix 1:

Appendix 2:

Appendix 3:

Appendix 4:

Appellant Juan Walker’s Answer (corrected) to Application for Leave
to Appeal

1B-25B

The People’s Response to Defendant’s Motion for Relief from
Judgment

26B-35B

September 8, 2015 Opinion of the Circuit Court Finding Trial
Counsel Ineffective

36B-41B

December 17, 2015 Post Conviction Hearing

42B-80B

V:\WPDOCS\WALKER-JUAN\1889I23aanswer-op p osition

20

